<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF PRISONS AND THE U.S. MARSHALS SERVICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




   OVERSIGHT OF THE FEDERAL BUREAU OF PRISONS AND THE U.S. MARSHALS 
                                SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-17

                               __________

         Printed for the use of the Committee on the Judiciary








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Available via the World Wide Web: http://judiciary.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-793                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan,
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID N. CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel

                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland
























                            C O N T E N T S

                              ----------                              

                             APRIL 26, 2017

                           OPENING STATEMENTS

                                                                   PAGE
The Honorable Trey Gowdy, South Carolina, Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations; 
  Committee on the Judiciary.....................................     1
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     3
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Dr. Thomas Kane, Acting Director, Federal Bureau of Prisons
    Oral Statement...............................................     7
The Mr. David Harlow, Acting Director and Deputy Director, U.S. 
  Marshals Service
    Oral Statement...............................................     8

 
   OVERSIGHT OF THE FEDERAL BUREAU OF PRISONS AND THE U.S. MARSHALS 
                                SERVICE

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                       House of Representatives,

       Subcommittee on Crime, Terrorism, Homeland Security, and 
                            Investigations,

                      Committee on the Judiciary,

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Trey Gowdy 
[chairman of the subcommittee] presiding.
    Present: Representatives Gowdy, Gohmert, Goodlatte, Chabot, 
Poe, Ratcliffe, Roby, Johnson of Louisiana, Jackson Lee, 
Conyers, Deutch, Bass, Richmond, Lieu, and Raskin.
    Staff Present: Margaret Barr, Counsel; Jason Cervenak, 
Counsel; Scott Johnson, Clerk; Joe Graupensperger, Minority 
Counsel; Veronica Eligan, Minority Professional Staff Member; 
Mauri Gray, Minority Crime Detailee; and Regina Milledge-Brown, 
Minority Crime Detailee.
    Mr. Gowdy. Good morning. The committee will come to order.
    I first want to apologize to everyone, the witnesses, the 
guests, my colleagues, for being late. We had a House Intel 
Committee meeting that I needed to be at. So I apologize.
    This is a hearing of the Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations. We are pleased to have 
our two witnesses. I will recognize myself for an opening 
statement, and then my friend from Michigan.
    Thank you, everyone, again, for being here. This is the 
third in a series of hearings to examine the Justice Department 
and its component agencies as we work to create a justice 
system that is respected by all and worthy of respect from all. 
So I want to thank our witnesses again, specifically Thomas 
Kane, the acting director of the Federal Bureau of Prisons, and 
David Harlow, the acting director of the U.S. Marshals Service, 
for appearing before the committee today.
    Respect for and adherence to the rule of law is the thread 
that holds the tapestry of this country together. The law is 
the most unifying and equalizing force we have, and the best 
way to respect the law is to enforce it. We are here today to 
examine two of our law enforcement agencies: the Federal Bureau 
of Prisons and the United States Marshals Service. The men and 
women of the BOP and Marshals Service have committed their 
careers to public service, justice, and the rule of law.
    The Federal Bureau of Prisons' mission is to protect 
society by confining offenders in the controlled environments 
of prisons and community-based facilities that are safe, 
humane, cost-efficient, and appropriately secure. Inside the 
prisons, the BOP programs provide work and other self-
improvement opportunities to assist inmates in becoming law-
abiding citizens. While we seem to be more familiar with the 
former, we often fail to recognize the efforts the BOP makes to 
reduce rates of recidivism and encourage inmates in their 
transition back into society.
    The reality is most of the women in the BOP and the various 
State departments of corrections will reenter society at some 
point. Many of these women and men will reenter society with 
either restitution due to victims or other familial and 
societal obligations, which require a job. Jobs require 
education, training, and life skills. Through education 
programs, inmates have the opportunity to take vocational and 
occupational training classes, literacy classes, parenting 
classes, wellness education, and language classes.
    The BOP also provides a full range of mental health 
treatment, through psychologists and psychiatrists. Through 
their religious programs, chaplains facilitate religious 
worship and sacred, scriptural studies across all faith lines. 
As advances have occurred in substance treatment programs, the 
BOP's drug abuse treatment strategy has grown and changed, 
focusing more on effective, evidence-based practices. These 
programs have reduced relapse, criminality, recidivism, and 
inmate misconduct, while improving relationships, health and 
mental health conditions, levels of education, and, therefore, 
employment upon return to the community.
    These programs are crucial to providing inmates the 
opportunities to readapt into their community environment 
during the final portion of their imprisonment. Overall, these 
programs result in enormous safety and economic benefit to the 
public.
    The United States Marshals Service, our Nation's oldest law 
enforcement agency, has been the enforcement arm of the Federal 
courts and has protected the Federal judicial process since 
1789. Just last week, I was with colleagues and friends in Fort 
Smith, Arkansas, where plans are taking hold to build a museum 
to honor the women and men of the United States Marshals 
Service for their countless and historic contributions to the 
betterment of our country.
    Whether serving Federal-level arrest warrants, protecting 
officers of the court, or protecting Americans through the 
Witness Protection Program, our U.S. Marshals' mission is to 
enforce Federal laws and provide support to virtually all 
elements of the Federal justice system. To execute their 
mission, they organize themselves into five decision units: 
Judicial and Courthouse Security, Fugitive Apprehension, 
Prisoner Security and Transportation, Protection of Witnesses, 
and Tactical Operations.
    By providing protection for Federal judges, court 
officials, witnesses, jurors, visiting public, and prisoners, 
the U.S. Marshals quite literally safeguard our judicial 
process every day. They provide assistance to State and local 
law enforcement by tracking down fugitives, recovering abducted 
children, identifying and locating sex offenders, just to name 
a few of their many responsibilities.
    As we examine the Federal Bureau of Prisons and the U.S. 
Marshals Service during our hearing today, it is important we 
not only recognize the critical role these agencies play in our 
criminal justice system, but also the sacrifices made by the 
women and men on the staff of the BOP and the Marshals Service. 
Their sacrifice, unfortunately, sometimes goes unrecognized, 
but it should be highlighted.
    It is because of the BOP and the Marshals Service our 
communities remain safe and protected from criminals. And it is 
because of these agencies that justice is and can be carried 
out.
    The work they do is incredibly dangerous, interacting with 
inmates, offenders, criminals who are often a threat, both to 
themselves and everyone around them. Some inmates are dangerous 
and disruptive and present extreme security risk to both our 
prisons and our Nation. For example, prisons constantly face 
the danger of contraband security threats, including 
cellphones, illicit drugs, and drones. Every day, BOP employees 
walk into potentially volatile situations. There are examples 
of prisoners coordinating with individuals outside the walls of 
prisons, which result in serious injury or even death of BOP 
employees.
    All of our law enforcement agencies hold a special place in 
the hearts of former prosecutors. And there are many former 
prosecutors on the Judiciary Committee. But for those of us 
that are former prosecutors, to the extent we have a heart 
left, law enforcement does have a special place in our hearts.
    The head of the South Carolina Department of Corrections is 
a man named Brian Stirling. I tell Brian every single time I 
see him that he has the hardest job in all of the justice 
system. The only time he makes the news is if there is an 
escape or if an employee of the Department of Corrections is 
injured or if an inmate is injured. You do not make the news 
for anything other than bad things. It is an impossibly hard 
job. I am sure that it is true at the BOP level, as well.
    So I want to say thank you for the important job that the 
BOP does, enforcing the sentences that are imposed for crimes 
that they did not legislate or sentences imposed by judges, but 
yet, we ask you to carry out the sentences and do it safely for 
the workers of the BOP, the public, and the inmates. In 
addition, we ask you to prepare, for reentry into society, 
folks that have, in the past, proven unwilling or incapable of 
conforming to societal norms.
    So we are going to explore these issues and others today. 
And I will look forward to hearing from our witnesses on how we 
can improve the safety of the officers and the efficiency of 
both the BOP and the United States Marshals Service.
    Again, I want to thank you for coming today. Thank you for 
your careers. And on behalf of all of us, make sure the women 
and men that work with your agencies know how grateful we are 
to them. And with that, I would recognize my friend from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. I join you in 
welcoming our distinguished witnesses to this hearing, which is 
an important one.
    As the Crime Subcommittee continues its oversight of the 
components of the Department of Justice that advance the 
Department's law enforcement mission, the Bureau of Prisons and 
the Marshals Service both play very important roles in this 
regard.
    It is particularly important that we closely examine the 
administration of the Bureau of Prisons at this time. You see, 
the Federal prison population increased by almost 800 percent, 
800 percent, between the years 1980 and 2013 before a modest 
decline kicked in over the past few years. The Bureau of 
Prisons' budget accounts for approximately 25 percent of the 
Justice Department's total spending, so clearly, we must 
reexamine the policies that have led to this explosion.
    The greatest contributor to this growth, which constitutes 
a crisis in over-incarceration, is the proliferation of 
mandatory minimum sentences, which unjustly impose sentences 
without regard to the facts of each case and, as we have seen 
with the prisons' budget, waste taxpayers' dollars.
    And so I am heartened that there is a bipartisan 
recognition growing about the need to reexamine these policies. 
And I hope that we will continue that effort today in the 
Judiciary Committee.
    Of course, we must also continue our effort to enact prison 
reforms at the Federal level, with the goal of expanding the 
availability and types of programs that prisoners participate 
in and that will reduce the possibility of recidivism. With 
regard to the Bureau of Prisons' operation, I fully recognize 
the challenges in appropriately housing such a large prison 
population. But we must do better in several regards.
    Over the years, the inspector general, the IG, has pointed 
out deficiencies with respect to the provision of health care 
in the Federal prisons, at one time noting that these problems 
were so serious, we could consider them constitutional 
violations. Such problems are particularly troubling at private 
prisons, which I am no fan of. Last year, The Nation magazine 
published an article detailing serious and disturbing instances 
of poor health care at private prisons contracted by the Bureau 
of Prisons. We must not allow these problems to continue, and 
we are going to follow this issue closely after these hearings.
    With respect to private prisons, generally, the inspector 
general has noted how poorly they compare to Bureau of Prison-
run facilities across an array of factors. We must end our 
reliance on these for-profit, contract prisons. They are being 
counterproductive.
    It is also important today that we examine the role of the 
U.S. Marshals Service and its administration. That agency has a 
broad mission, ranging from protecting our Federal courts and 
judges, holding post-arrest detainees, administering the 
Witness Security Program, and apprehending fugitives. In recent 
years, there have been questions about the use of the Witness 
Security Program's inclusion in handling of individuals who had 
been involved in terrorism. We need to evaluate how the agency 
has responded to such concerns raised by the inspector general.
    And with regard to the apprehension of fugitives, we need 
to examine Marshals Service's use of cell-site simulators, also 
known as Stingray devices, in light of the Department's 
guidelines on these devices. Advancements in such technology 
have the potential of making law enforcement more effective, 
but we must still abide by the requirements of the Fourth 
Amendment to our Constitution.
    So I thank the acting director of both agencies for being 
with us today. We look forward to your testimony and to our 
evaluation and discussion of these issues. I thank the 
chairman.
    Mr. Gowdy. The gentleman from Michigan yields back. The 
chair will now recognize the gentleman from Virginia, the 
chairman of the full committee, Mr. Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. Welcome, 
Acting Director Kane and Acting Director Harlow. I thank you 
both for your service, and I am happy you are here with us 
today. And I also want to thank Chairman Gowdy for holding this 
third in a series of hearings, examining the various components 
of the Department of Justice.
    The Federal Bureau of Prisons is tasked with protecting 
society by confining offenders in the controlled environments 
of prisons and community-based facilities that are safe, 
humane, cost-efficient, and appropriately secure, and that 
provide work and other self-improvement opportunities to assist 
offenders in becoming law-abiding citizens. It is the duty of 
the Bureau of Prisons to not just warehouse Federal inmates, 
but to assist those inmates in becoming law-abiding citizens.
    We all have an interest in that since, as we all know, the 
vast majority of Federal inmates will someday be released. It 
is for this reason that I am deeply concerned about the 
precipitous drop in the number of inmates employed in proven 
reentry programs, such as the Federal Prison Industries 
program.
    Last year, FPI only employed 10,896 inmates. This reflects 
a reduction of more than \2/3\ in the percentage of eligible 
inmates working in the FPI program: from 25 percent in 2000 to 
less than 8 percent in 2016.
    The steep decline in this program has a deleterious impact 
on both prison operations and inmate recidivism. First, 
correctional workers' representatives cite this decline as a 
significant contributor to the increase in inmate-on-officer 
assaults the Bureau of Prisons has experienced in recent years.
    Second, inmates who work in Federal Prison Industries are 
24 percent less likely to reoffend upon release from prison 
than non-FPI inmates and 14-percent more likely to be gainfully 
employed post-incarceration.
    We must ensure that participation in FPI is maximized to 
the fullest extent possible to protect the hardworking men and 
women of the Bureau of Prisons. I look forward to working with 
you, Director Kane, to ensure that this happens.
    I am also pleased to welcome Acting Director Harlow to 
discuss the United States Marshals Service, the oldest law 
enforcement agency in the United States. Since its creation in 
the Judiciary Act of 1789, the U.S. Marshals Service has been 
tasked with protecting the Federal judiciary. Today, it 
continues this mission and has taken on a variety of other 
duties, including fugitive operations, Witness Security, and 
Tactical Operations.
    The Marshals Service provides critical assistance to State 
and local law enforcement agencies in apprehending dangerous 
fugitives. In 2016 alone, the U.S. Marshals Service arrested 
over 80,000 fugitives who were evading justice in both State 
and Federal judicial systems. Each day, deputy U.S. Marshals 
voluntarily expose themselves to great danger in pursuing 
violent criminals, often with little recognition. I would like 
to assure the men and women of the Marshals Service that their 
work is critical and appreciated.
    Executing the assorted duties assumed by the Marshals 
Service requires a great deal of manpower, coordination, 
training, and proper equipment and facilities. Today, we will 
discuss areas where the Marshals Service is experiencing 
challenges. I know the agency is looking for changes in its 
hiring capabilities, and I would like to hear the problem you 
presently encounter with the current framework.
    With Congress' oversight responsibilities, we must also 
address times when agencies have not been able to meet all 
expectations placed upon them, so we can assure such mistakes 
are not repeated.
    Yesterday, the Department of Justice inspector general 
released a report finding the Marshals Service had not provided 
sufficient oversight of a contracted company that operated 
Leavenworth Detention Center. This led to problems such as 
triple-bunking of prisoners and understaffing of the prison. I 
would like to hear what protocols the Marshals Service has in 
assuring proper oversight of contracted companies and what, if 
any, steps the Marshals Service has taken to avoid such 
problems in the future.
    Acting Director Kane and Acting Director Harlow, I thank 
you again for being here and for your continued service. And I 
look forward to your testimony regarding the challenges facing 
both of your agencies. Thank you, Mr. Chairman; I yield back.
    Mr. Gowdy. The gentleman from Virginia yields back. We have 
a very distinguished couple of witnesses today. I want to begin 
by swearing you in before I introduce you.
    If you would please stand and raise your right hand. Do you 
swear the testimony you are about to give is the whole truth 
and nothing but the truth, so help you God?
    Let the record reflect the witnesses have answered in the 
affirmative. You may be seated.
    I will introduce you en banc and then recognize you 
individually for your 5-minute opening. I will tell you that 
your full body of your opening is available to the members, and 
I am sure that they will read it assiduously. So you are free 
to summarize that in 5 minutes if you would like to do so.
    Our first witness is Dr. Thomas Kane. He is the acting 
director of the Federal Bureau of Prisons. Our other witness is 
Mr. David Harlow, who is the acting director of the United 
States Marshals Service. Those are the two shortest bios I have 
ever read. So thank you for that. Dr. Kane, you are recognized.

 STATEMENTS OF THOMAS KANE, ACTING DIRECTOR, FEDERAL BUREAU OF 
PRISONS; AND DAVID HARLOW, ACTING DIRECTOR AND DEPUTY DIRECTOR, 
                     U.S. MARSHALS SERVICE

                    STATEMENT OF THOMAS KANE

    Mr. Kane. [inaudible] hopefully and Ranking Member Conyers. 
And it is great to be here this morning. I appreciate the 
opportunity to appear before you today to discuss the mission 
and operation of the Federal Bureau of Prisons.
    I am honored to speak today on behalf of the nearly 40,000 
Bureau staff, who are law enforcement professionals who support 
the agency's public safety mission and our core values of 
respect, integrity, and correctional excellence. These 
dedicated public servants are on the job 24 hours a day, 7 days 
a week, and operating Federal prisons that are safe, cost-
effective, and humane.
    The Bureau plays a critical role in the Federal criminal 
justice system. Incarceration of criminals is a valuable crime-
reduction strategy and an important law enforcement tool that 
holds individuals responsible for their actions and deters 
others from committing similar crimes.
    Our staff ensure that Federal inmates are accounted for at 
all times, are treated humanely, and are returned to their 
communities better prepared to be law-abiding citizens.
    In addition to our 122 Federal prisons at our four security 
levels, we have several administrative facilities. We also have 
contracts with 11 secure, privately-operated prisons and a 
network of privately-operated, residential reentry centers. Our 
total inmate population, currently, is 188,722 and continues to 
decline from the high-water mark of 219,580 in fiscal year 
2013.
    The President and the Attorney General have a strong 
commitment to our Nation's public safety, and we understand 
this may lead to growth in the Federal inmate population. We 
are prepared to work closely with the Department to ensure that 
sufficient capacity is available to address any projected 
increase, while maintaining our commitment to safety and 
security.
    Many inmates come to prison with limited job skills and 
experience, education deficits, substance abuse disorders, and 
mental health problems. Federal prisons provide opportunities 
for inmates to work, develop discipline and structure, and 
address these problems, thereby enhancing safety for our staff 
and our communities.
    The Bureau continues to face challenges in its prison 
operations. Terrorist inmates and those with ties to drug 
cartels and organized crime present grave risks to our 
operations and to public safety. Gangs create significant 
disruptions and dangers to staff and inmates alike through 
their attempts to continue their criminal operations. 
Introduction of contraband, such as illicit narcotics, 
including synthetic drugs and cellphones, is a perpetual 
problem. And drones are an increasing threat used to introduce 
this contraband into prisons and for other means.
    Health care costs continue to rise as we manage increasing 
numbers of older inmates, many of whom have complex medical 
problems. At the same time, recruitment and retention of 
qualified medical professionals in our prisons is hampered by 
lower Federal pay in benefits than are offered by the private 
sector.
    We look forward to continuing to support the law 
enforcement efforts of the Department of Justice and the 
administration.
    Chairman Gowdy, Ranking Member Jackson Lee, who is not with 
us as yet, excuse me, and members of the committee, this 
concludes my formal statement. I appreciate the opportunity to 
provide the committee with my formal statement and would be 
happy to answer any questions.
    Mr. Gowdy. Thank you, Dr. Kane.
    Mr. Harlow.

                   STATEMENT OF DAVID HARLOW

    Mr. Harlow. Good morning, Chairman Gowdy, Chairman 
Goodlatte, Ranking Member Conyers, members of the Judiciary 
Committee. I am privileged to be the Acting Director of the 
United States ----
    Mr. Gowdy. If you will push that button. Some of my older 
colleagues need to be able to hear you.
    Mr. Harlow. Sorry, sir. I am privileged to be the Acting 
Director of the United States Marshals Service. I appreciate 
the opportunity to appear before you today. I will keep my 
statement short, so that I can share two narratives with you 
before answering your questions.
    The first relates to how humble I am to be working with the 
men and women of the United States Marshals Service. As the 
world's premiere fugitive hunters, we conduct some of the most 
dangerous work in law enforcement. That was brought home in the 
most painful way on November the 18th when a group of deputy 
U.S. Marshals and task force officers in Georgia surrounded a 
mobile home containing a fugitive who was wanted for the 
attempted murder of police officers in South Carolina. A few 
minutes later, Pat Carothers, a 26-year Marshals Service 
veteran, had made the ultimate sacrifice, killed by the 
fugitive who had been lying in wait with a gun behind the 
bedroom door.
    Pat left behind his beautiful wife and five children, three 
of whom are U.S. Naval Academy graduates or current students. 
To those of us who knew him, and several of your staff members 
met Pat last year when they visited our task force, he was the 
epitome of a selfless professional. It has been my privilege to 
be associated with Pat and the many men and women like him 
throughout my 34-year Marshals Service career. They walk into 
harm's way every day, making communities across our Nation 
safer.
    The second highlight involves this committee and shows how 
our stakeholders and Congress can help us accomplish our 
missions. As part of the Justice for Victims of Trafficking 
Act, this committee helped give the U.S. Marshals Service the 
authority to assist State and local officers and other Federal 
agencies in locating and recovering critically missing 
children. Previously, we could not help our State and local 
partners, who were coming to us and asking for help, to locate 
and find missing children, who we knew were in critical danger, 
but we did not have a warrant for someone's arrest.
    Thanks to Chairman Gowdy, who introduced it, and Chairman 
Goodlatte and Ranking Member Conyers, who helped get it across 
the finish line; in May of 2015, we obtained critically missing 
child authority.
    I am pleased to report to this committee today that, as a 
direct result of that new authority, the U.S. Marshals Service 
has already recovered 102 endangered children, who, previously, 
we would have not been able to help.
    Let me give you one example. Earlier this year, a 16-year-
old girl in Alabama did not return home from school. Security 
cameras captured the child getting into a vehicle. Upon 
investigation, it was determined that the child was being 
prostituted and being beaten by her abductor and had been taken 
to another State. Our Fugitive Task Force quickly found the 
girl, and we had the memorable pleasure of telling the girl's 
father that their daughter was safe.
    These are just two examples of the extraordinary work that 
we do every day. There are many others in the areas of judicial 
security, the Asset Forfeiture program, Prisoner Operations, 
Witness Security, Tactical Operations, and all the other the 
Marshals Service mission areas.
    Thank you for your continued support. It is greatly 
appreciated by all of us in the U.S. Marshals Service. I look 
forward to answering your questions.
    Mr. Gowdy. Thank you, Mr. Harlow. The chair will now 
recognize Mr. Chabot.
    Mr. Chabot. I thank the chairman for yielding. I have been 
a member of this committee a little over 20 years now. And this 
is for Dr. Kane; I want to talk to you about the Prison 
Industries program. And the full committee chairman, Mr. 
Goodlatte, mentioned it in his opening statement, but I wanted 
to go into it a little bit more.
    And prior to getting here over 20 years ago, as a member of 
Cincinnati City Council and as a county commissioner, I had 
worked very closely with local law enforcement, particularly 
the sheriff, Si Leis, back in Hamilton County back in those 
days, finding ways to put jail inmates to work doing various 
things around the community. They had taken something from the 
community, and it was an opportunity for them to give something 
back.
    So I have been active with the Prison Industries program 
here for many years now and had worked very closely with my 
Democratic colleague, Bobby Scott, in the challenges that we 
faced over the years. One of the challenges was that there was 
an argument that there is some competition with folks in the 
private sector. For example, I think one of the things we made 
here were desks, in the Prison Industries. And some of them 
went to Federal Government office buildings and things.
    And so some of the folks in the office industry and Pete 
Hoekstra, who was the one that we generally battled with, and 
he had been in that industry. And I see some of your folks 
smiling back there because they remember these days. But we 
used to battle about that.
    And I happen to be the chairman now of the House Small 
Business Committee, so I kind of look at it from both sides. 
And I think what we have to do is have a balance here. These 
folks that are imprisoned in Federal prisons around the 
country, and it is the same thing at the State and local level, 
but these folks, most of them, are going to get out someday. 
And so if they can get a skill that they can, then, put into 
use in the private sector someday, that is an advantage that 
reduces recidivism. And I am not saying anything that you, 
obviously, do not already know.
    But I have the same concerns that the chairman mentioned in 
his opening statement that, back in 2000, 25 percent of those 
eligible for the program in the Federal prisons were 
participating, and as of 2016, just 16 years later, it is down 
to 8 percent. That concerns me greatly. And I would like to see 
what we can do to improve those numbers and have more folks 
that we are incarcerating at taxpayer expense in Federal 
prisons, how we cannot work more effectively to get those folks 
skills.
    It occupies them in the prison, so they are, perhaps, less 
dangerous to the guards. They have got something occupying 
their minds that is productive, rather than scheming against 
other inmates or against the guards.
    So, in any event, I rambled on for a while here. Could you 
address that, Dr. Kane?
    Mr. Kane. Absolutely, Mr. Chabot. Thank you so much. Thank 
you for your support of Federal Prison Industries over the 
years. And we are greatly appreciative of Chairman Goodlatte's 
very focused attention on the issue continuing to this day, as 
I know you are.
    The high-water mark of 25 percent was largely reached at a 
time when the Federal Government was spending more money as a 
whole on things, including the Defense Department, our biggest 
customer.
    With the changes in budgets over the last 10 to 12 years at 
the Federal level, some of the demand for the products Prison 
Industries has made historically have been reduced. But in 
addition to that, in 2016, we took a very focused look at our 
deficiencies in producing those products that we sell to the 
Federal Government and did major restructuring. We closed or 
consolidated underutilized factories that also contributed, to 
some extent, to the reduction in the overall training 
opportunities for inmates in Federal Prison Industries.
    And so, now, we have put the existing Federal Prison 
Industries on a sustainable path. We had actually lost revenue 
over about a 7-year period. For the first time in 8 years, we 
had a very positive year as a result of that restructuring with 
not only the consolidations and closings. but also streamlining 
of staff, especially management. And again, we feel we are on a 
very strong path of sustainability.
    We are now turning our attention to the utilization of the 
authorities granted us by Congress in recent years, especially 
the opportunity to repatriate or reshore the opportunity to 
produce products that we can now offer to private sector. And 
so we have done some of that. We are employing roughly 800 
inmates in those kinds of initiatives, but we need to do much 
more. That enables us to grow training opportunities for 
inmates without, in any way, competing with U.S. citizens who 
are working in similar areas here in the United States.
    Mr. Chabot. Thank you. Mr. Chairman, could I ask for 1 
additional minute? I thank the gentleman.
    You probably will not have time to answer the question, but 
there were two other issues I was going to raise. I have to 
chair the Small Business Committee at 11:00, so I will not have 
a chance, in case they went into a second round.
    But just quickly, it is my understanding that one of the 
big problems that prisons are facing nowadays, both at the 
Federal and local level, as well, is cellphones getting 
smuggled in and criminal activity that goes on as a result of 
that and other, again, schemes that sometimes prey on the 
public and various things. I know there are some technologies 
that are coming forward that you can block these things to 
basically make them ineffective.
    Mr. Kane. Yes.
    Mr. Chabot. We have had some folks in our office talking 
about that.
    And the other area that I was going to raise was the 
unacceptably high levels of prison rape that has been 
occurring. And I know it has been an ongoing problem. But 
again, those were a couple issues that I would like you to 
think about. And I will probably follow up in another forum at 
another time if I can.
    Mr. Kane. We would greatly appreciate it. Thank you, Mr. 
Chabot.
    Mr. Chabot. Thank you very much. Thank you, Mr. Chairman. I 
yield back.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize the gentleman from Michigan, the ranking member of 
the full committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    Gentlemen, this is a very disturbing hearing for me because 
we know that there is a lot of inadequate health care, 
misdiagnosing, and sometimes no care at all. And we know that 
the private prisons are run for-profit, which means the lower 
their costs are by rendering inferior services, they are able 
to make more profit. And that is what they are: a for-profit 
business.
    Now, I have some questions about private prisons, and I 
would like to explore any reluctances that you have about this, 
Dr. Kane.
    Mr. Kane. Thank you, Ranking Member Conyers. It is my 
pleasure to address the question. There are times when prison 
may have challenges with health care. Certainly, private 
prisons do, as well as government-operated prisons. But with 
respect to the operation of private contract prisons working 
for the Federal Government, they are holding, as you know, sir, 
Department of Justice, Bureau of Prisons inmates, individuals 
in our custody, the custody of the Federal Government. It is 
our responsibility to ensure that these contract operations or 
prisons are meeting the essential needs of the prisoners, 
certainly to include health care.
    And so when we learn that there are issues or problems with 
a private contract prison, we have onsite staff who are 
observing the operations every day. If an individual who has a 
health issue is acutely ill and needs more intensive care than 
can be provided at a contract prison, they are moved back to a 
Bureau of Prisons facility or to a hospital.
    If a contractor providing private prison desk were to have 
a systematic problem, we would take deductions for that from 
payments to them. If that problem were to persist, we would use 
cure notices specifying what needed to be done to change their 
operations. And if they were to fail after being put on such 
notice, we could cancel that contract if need be.
    And so we provide ongoing oversight, even every day, with 
staff onsite. In addition, we send in subject matter experts to 
provide reviews and audits on a regular basis. One of the 
recommendations of the IG was to add another medical subject 
matter expert to those review teams, and we are doing that.
    Mr. Conyers. Thank you. Is there any updating of this 
process going on, or where do we go from here? What does the 
future look like?
    Mr. Kane. With respect to private prisons in general, sir, 
do you mean? Or with respect to health care?
    Mr. Conyers. Well, let's take both of them while we are at 
it.
    Mr. Kane. Okay. Absolutely, sir. With respect to health 
care, we really appreciate the recommendations of the IG. We 
agreed with them, and we are pursuing the implementation of 
each of those. With respect to the operation of private prisons 
in support of the Bureau of Prisons, we always, first, attempt 
to maximize the utilization of the capacity that the Bureau of 
Prisons has in its own facilities.
    To the extent that we need to complement the capacity of 
the Bureau of Prisons to manage the Federal inmate population 
involving the private sector, we do that as needed. And 
historically, we have done that at the lowest security level, 
housing criminal aliens at private sector institutions.
    Given Attorney General Sessions' strong focus on a priority 
for the investigation and prosecution of immigration offenses, 
we do expect an increase in additional immigration offenders 
over the weeks and months ahead. We will monitor those 
population trends very closely, and to the extent that 
increases in immigration offenders, at the lowest security 
level, occur, we will both, first, as I mentioned earlier, 
maximize the use of Federal Bureau of Prisons institutions at 
the lowest security level and, to the extent needed, contract 
for additional capacity from the private sector to help manage 
those low security immigration offenders.
    Mr. Conyers. Thank you. Let me ask the other question to 
Director Harlow.
    What has the United States Marshals Service done to ensure 
that known or suspected terrorists, participating in the 
Witness Security Program, do not pose national security risks 
to our country and its citizens?
    Mr. Harlow. Thank you, Ranking Member, for that question. 
We took the audit that occurred a couple of years ago with OIG 
and with our partners in the Office of Enforcement Operations 
very seriously and did an audit of all of the cases of our 
client in the program and made sure that we had tabs on people 
that give us concern. We have enhanced our protocols to make 
sure that we regularly monitor those folks. And of course, we 
are working with the department to try to limit the number of 
people with those concerns who come in the program in the first 
place.
    Mr. Conyers. Have you had any embarrassing moments? Has 
this program failed occasionally?
    Mr. Harlow. Not, sir, since the review from a couple of 
years ago. I think our new protocols are steadfast, and they 
are appropriate.
    Mr. Conyers. Okay, thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize the gentlelady from Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman, and thank you for your 
witnesses for being here today. We appreciate your testimony.
    I just, on a personal note, have never had the opportunity 
to thank the United States Marshals Service for what you do. 
When I was a little girl, we were under the protection of the 
Marshals Service for a time in our lives. And we really 
appreciated the dedication and service with the protection of 
our family during a time that could seem very scary to a 13-
year-old girl. So thank you for that.
    You are tasked with tracking and apprehending the most 
dangerous, violent, and evasive criminals in the country. What 
steps are you taking to ensure that United States Marshals have 
the equipment and training necessary to keep them safe in 
executing their duties?
    We have heard, specifically, that you may currently face 
challenges procuring effective personnel protective equipment, 
like body armor and trauma kits. And we have heard that some of 
that equipment may be out of warranty, as well. So if you could 
answer that question, that would be great, to help provide us 
with information.
    Mr. Harlow. Thank you, Congresswoman, for that question. As 
I mentioned before, the duty of apprehending violent fugitives 
is probably the most dangerous in law enforcement. And 
unfortunately for us, in 2011, we lost nine officers, seven 
task force officers and two deputy U.S. Marshals.
    We immediately started a top-to-bottom review of all our 
policies, our procedures, our equipment, our training, our 
organizational structure, to look and see what we could do and 
what gaps would be there to make our people safer.
    We came up with a wonderful series of training programs to 
make sure that everybody in the Marshals Service who does this 
type of work has the best training they can possibly have and 
has it often. And we have actually reprogrammed a lot of 
resources to make sure that occurs for deputy marshals every 
day.
    In relation to equipment, we did identify that we needed to 
make sure our people were equipped properly. And I can tell you 
I am not aware of any expired equipment that we have right now. 
It is a challenge. We do have to refocus parts of our budget. 
But there is no higher priority to me than making sure that our 
deputy marshals have the best equipment. And as long as I am 
here, they will not have an expired vest or an expired shield.
    So we do face a challenge. We do have to reprogram other 
resources, but nothing more important than the protective 
equipment for our deputy U.S. Marshals.
    Mrs. Roby. Well, I hope if there ever are specific 
deficiencies that you will certainly make sure that we are 
aware of that.
    Mr. Harlow. Yes, ma'am.
    Mrs. Roby. So again, thank you for what your folks do.
    Dr. Kane, last Congress' committee, and I was not on the 
committee at the time, considered legislation authored by our 
friend and colleague, the gentleman from Utah, Mr. Chaffetz, 
that would provide incentives to inmates to participate in 
recidivism reduction programs. What programs are currently 
being used by you guys to curb recidivism, and what are most 
successful? Have you seen success?
    Mr. Kane. Yes. Thank you very much, Congresswoman. We have 
seen very significant success as a result of the participation 
in a variety of programs, most essentially education, job 
training, substance abuse treatment or avoidance of those 
problems, and Prison Industries and vocational training. And 
so, yeah, there are a wide variety of other programs that we 
use that fall under a broader umbrella, typically referred to 
as cognitive behavioral therapy, that get at the issues of 
everyday thinking and decisionmaking that has obviously then 
become a habitual problem for many of the individuals, or 
virtually all of the individuals, incarcerated who have made 
pro-criminal decisions.
    And so we try to address all of them, the sort of skills 
that the chairman referred to that are life skills, in addition 
to the fundamental skills of education, employment, substance 
abuse avoidance, that individuals need before they go back to 
the community in order to remain law-abiding. So we do a wide 
variety of those things.
    Our incredible professionals in the Bureau of Prisons do 
very complex work of that sort and very dangerous work. And we 
could not be prouder of what they do. Thank you.
    Mrs. Roby. Thank you both again for the jobs that you do. 
And we appreciate you being before the committee today. And I 
yield back.
    Mr. Gowdy. The gentlelady from Alabama yields back. The 
chair will now recognize the gentleman from California, Mr. 
Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Thank you, Mr. Harlow, for 
your service. I have great respect for the U.S. Marshals 
Service. But what I would like to ask about today is your use 
of the Stingray device, also known as a cell-site simulator, 
that captures information from people's cellphones. I believe 
there were a number of both Democrats and Republicans who 
believe our surveillance state has gotten out of control and 
that there has been way too much spying on Americans.
    In late 2014, The Wall Street Journal wrote an article on 
your Service's use of these devices. So I have some questions, 
both historically, as well as current practice. From about 2007 
to 2014, did you have to use a warrant before you all used the 
Stingray device?
    Mr. Harlow. Thank you for that question, Congressman. We 
used a court order. We would traditionally get an order from 
the court, not necessarily a search warrant, prior to 2014 and 
the change in the policy from the Department of Justice.
    Mr. Lieu. Historically, did you ever use the Stingray 
device without a court order?
    Mr. Harlow. No, sir. Our personnel adamantly do not use a 
Stingray device without a court order.
    Mr. Lieu. And then there was a change in Department of 
Justice policy. About when did that happen?
    Mr. Harlow. About 2014 and 2015, there was a great deal of 
discussions. I think the policy may have actually changed in 
2015. It might have bled over into 2016. But it immediately 
went to a search warrant every time we deploy that equipment.
    Mr. Lieu. And that is still the current policy?
    Mr. Harlow. Yes, sir, it is the current policy.
    Mr. Lieu. And what kind of information do you acquire from 
the Stingray?
    Mr. Harlow. Sir, our authority is related to apprehending 
and locating a violent fugitive. So when we utilize those 
devices, we are trying to locate a phone that we believe is on 
the person of the person we are looking for. So essentially the 
information is location-only of that particular device.
    We do utilize it in the most egregious cases. As was 
pointed out, we arrest about 100,000 people a year. We use 
these devices on less than 3 percent of the fugitives we 
arrest. So we use it very sparingly. It is a last-resort tool 
that we use for the most violent offenders.
    Mr. Lieu. All right. Can the device be configured to 
acquire cellphone data: emails, text messages, voice 
conversations?
    Mr. Harlow. Not our devices, sir. I do not believe so. I do 
not believe our devices have that capability.
    Mr. Lieu. What do you do with other people that are other 
captured when you have deployed a Stingray and their cellphone 
locations? What happens to that information?
    Mr. Harlow. It is disposed of, sir.
    Mr. Lieu. At the time that you get it?
    Mr. Harlow. Yes.
    Mr. Lieu. All right. Thank you. I appreciate those answers.
    Mr. Harlow. Thank you.
    Mr. Lieu. I have some questions for Dr. Kane. Thank you, as 
well, for your service.
    I, along with other members of Congress, wrote a letter to 
the Federal Bureau of Prisons about recidivism. And we noted 
that there were these programs known as Arts in Corrections 
programs that, historically, have done a good job of reducing 
recidivism. And we were asking about how those programs were 
working in the Federal Bureau of Prisons and if we could 
increase those programs.
    And the Bureau wrote a letter back to us, and it was dated 
March of 2016. And the Bureau agreed. And it said that the 
Bureau recognizes the value of the Arts in Corrections program 
to deliver effective rehabilitation. And then it stated that 
the Bureau was presently evaluating opportunities to enhance 
your art program offerings and explore potential opportunities 
to partner with community organizations.
    I know there are many organizations, one of which is, for 
example, Actors' Gang, that, in California, they have gone in 
and done tremendous work in California institutions. I just 
want to see if there has been any movement on the Arts in 
Corrections piece of your rehabilitation program.
    Mr. Kane. We fully support a wide variety of productive 
activities among prisoners that may not fall under the umbrella 
of more traditional, recidivism-reducing programs, such as 
involvement in the arts. But when you go into any of our 
institutions, for example, you will see the sort of paintings 
that prisoners do in their free time after work and after their 
involvement in education and other programs. And they are very 
talented individuals.
    And the U.S. Probation Service reinforces with us often 
that those sorts of personal activities are very important for 
engaging the individual in using their free time effectively 
once they are back in the community. So we want to reinforce 
those sort of life skills-related opportunities.
    Mr. Lieu. And let me just conclude with this question: do 
you mind providing this committee and office with an update 
about the Arts in Corrections programs?
    Mr. Kane. We would be happy to do that, sir.
    Mr. Lieu. All right. Thank you. I yield back.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize the gentleman from Texas, former United States 
attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Gentlemen, thank 
you both for taking the time to be here today to come and 
inform us about the issues and concerns that relate to your 
respective agencies.
    Dr. Kane, when I was the U.S. attorney for the Eastern 
District of Texas, my jurisdiction included the Beaumont 
Federal Correction Complex, which, as you know, includes the 
Beaumont maximum security USP, as well as the medium- and low-
security FCI facilities there.
    During my tenure, back in November of 2007, there was an 
incident there, where two of the correctional officers at the 
USP were escorting inmates Mark Snarr and Edgar Garcia to their 
cells. Snarr and Garcia were able to slip their restraints and, 
using prison-made shanks, repeatedly stabbed the correctional 
officers, then took the officers' keys and used that to get 
into the cell of an inmate, Gabriel Rhone. Mr. Rhone was 
stabbed 50 times and died. Fortunately, both correctional 
officers survived. Snarr and Garcia, by the way, were 
prosecuted by my office for capital murder charges and were 
sentenced to death.
    But unfortunately, this was not a one-off incident. And it 
has been a recurring problem for correctional officers who are 
vulnerable to attacks from inmates with homemade weapons. I 
know, in some cases, the ratio is as many as 150 inmates per 
correctional officer. So I guess I want your perspective on 
what BOP has been doing, because I know that the sort of spike 
with respect to this violence has continued, but what BOP has 
been able to do to try and break out of it and if there is 
anything that we need to be doing here in Congress to get out 
of this particular cycle.
    Mr. Kane. Thank you, Congressman Ratcliffe. I remember 
those incidents very well. And we responded immediately by, 
first, reinforcing the training that involves the activities 
that those staff members were undertaking, just to ensure that 
everybody is on top of their game. Number two, we have worked 
directly with our union, and effectively with our union, on a 
number of safety initiatives to protect staff, to include the 
issuance of OC gas for staff to use to defend themselves if 
they are attacked in that sort of way. We have issued slash- 
and stab-resistant vests to staff at high-security and medium-
security institutions, jail units, medical centers, et cetera, 
to protect them from, again, those sorts of attacks.
    And we will continue. We have added an additional 
correctional officer to every high-security living unit on 
evenings and weekends when, as you alluded to, where an 
individual might otherwise be supervising 130 very dangerous 
individuals. We have cut that ratio in half by doing that.
    Mr. Ratcliffe. Well, I am very glad to hear that. And of 
course, if there is anything we can do to support the safety of 
your correctional officers here, please let us know.
    There is a lot of public talk about the threat of radical, 
Islamist terrorists, but not so much public attention or focus 
on Islamic radicalization that is taking place in our Federal 
prisons. In talking with some of my former colleagues who are 
still at the Department of Justice and still prosecuting these 
national security cases, it has been expressed to me that there 
has been some recurring difficulty in getting BOP's assistance 
and approval in cases where cooperators would be used to 
electronically record or surveil target inmates. Are you aware 
that that is a problem or agree that that is an issue, and has 
that been raised to your level?
    Mr. Kane. It has not been raised to my level. I know we are 
often involved in investigations collaborating with U.S. 
attorney's offices, the FBI, other investigatory staff, 
including the Marshals. And so we want to be able to support 
the effective investigatory and arrest and prosecutorial work 
of our partners. So I will look into that matter as soon as I 
return to the office. I am aware of no such concerns, but I 
appreciate you bringing it to my attention, Mr. Ratcliffe.
    Mr. Ratcliffe. Well, I appreciate you looking into that.
    Mr. Kane. Thank you.
    Mr. Ratcliffe. My time has expired. Director Harlow, I wish 
I had more time. I would just say that, from my experience at 
the Department of Justice, I benefited greatly from the work of 
the United States Marshals Service.
    The brave men and women in the Marshals Service are, as 
you, I think, said in your opening statement, the premiere 
fugitive hunters in our community right now. And so, from my 
perspective, it is both a vitally important and, frankly, a 
historically well-run Federal agency. So let me just ask you to 
thank all of the deputy U.S. Marshals and the brave men and 
women that support them in this very critical mission. And I 
yield back.
    Mr. Harlow. Thank you, sir.
    Mr. Gowdy. The gentleman from Texas yields back. The chair 
will recognize his friend from Florida, Mr. Deutch.
    Mr. Deutch. Thank you very much, Mr. Chairman. Mr. 
Chairman, I am extremely concerned with recent reports 
describing the horrific conditions and loss of life during the 
interstate transportation of prisoners by private companies. 
These private prisoner transport companies are moving people 
throughout our country. The people being moved are prisoners 
currently serving sentences in prison, but also people who are 
accused of breaking the law but have not yet even been tried or 
convicted.
    In a recent New York Times article, an incident was 
described involving the transport of Kevin Eli from Virginia to 
Florida to face a 9-year shoplifting charge. During the 
transport, Mr. Eli complained on numerous occasions of pain; 
however, these complaints were ignored by the guards. And on 
March 7th, 2017, Mr. Eli died in the transport vehicle. The New 
York Times article also described in detail the terrible 
conditions experienced by the numerous other prisoners in the 
van. Some of the people were transported in the vehicle on a 
trip that lasted for 2 weeks.
    Mr. Chairman, I ask unanimous consent to submit The New 
York Times article from March 23rd, 2017, entitled, ``Death on 
a Prison Bus: Extradition Companies' Safety Improvements Lag'', 
for the record.
    Mr. Gowdy. Without objection.
    Mr. Deutch. Thank you. Yet this was not the only tragedy 
involving the interstate transport of prisoners by private 
companies. The Times article stated there have been 24 people 
killed or seriously injured in more than 50 crashes involving 
private prison transports, and approximately 60 prisoners have 
escaped, and 14 alleged sexual assaults have occurred on the 
transports.
    In 2000, Congress passed and the President signed into law 
Jenna's Act. This law establishes minimum standards for the 
transportation of prisoners and people accused of crime by a 
private transport company. The standards were enacted to 
protect the prisoners being transported by private companies, 
to protect the guards involved in transporting the prisoners, 
and to ensure the safety of the surrounding communities through 
which private prisoner transport vans travel.
    The law provides the Department of Justice with the 
authority to investigate and to pursue legal action for any 
violations of the law. But since the enactment of Jenna's Act, 
the Department of Justice has pursued one case, in 2013, that 
resulted in the settlement with Extradition Transport of 
America.
    Since last year, I have raised these concerns on numerous 
occasions. I raised these concerns first with former Attorney 
General Lynch during a full committee oversight hearing on July 
12th, 2016. I submitted follow-up questions for the record, 
asking if DOJ had investigated several prisoner deaths that 
occurred in transports since 2012.
    On April 12th of this year, I sent a letter to the Attorney 
General, urging the Department of Justice to use its authority 
under Jenna's Act to investigate and take appropriate action 
against a private prisoner transport operated by Prisoner 
Transportation Services. This is the company described in The 
New York Times article involving the death of Kevin Eli. And 
last week, I sent a letter to you, Chairman Gowdy, and the full 
committee Chairman Goodlatte, requesting a hearing on the 
issue.
    Chairman Gowdy, the subcommittee has jurisdiction over this 
issue, as this was the House subcommittee that originally 
considered Jenna's Act when it made its way through the 106th 
Congress. And I hope that we can work together on this 
important issue and work on any legislative fixes necessary to 
ensure that Jenna's Act is enforced.
    For our witnesses today, I would like to know whether you 
make arrangements with private prisoner transport companies to 
move prisoners to different facilities.
    Dr. Kane.
    Mr. Kane. Thank you, Congressman Deutch. I will start. We 
do have arrangements with the private prison contractors with 
whom we do have contracts. Those are three corporations at the 
moment.
    Mr. Deutch. What are the three, Dr. Kane, please?
    Mr. Kane. It is GEO; CoreCivic, formerly CCA; and 
Management and Training Corporation, MTC.
    Mr. Deutch. Thank you.
    Mr. Kane. Each of them is required, by contract, to provide 
transportation for the Federal inmates in their charge if that 
is within a 400-mile radius of the facility. If it is beyond 
400 miles, the Bureau of Prisons does so. And if they are 
longer trips, we will work with the U.S. Marshals and JPATS 
transportation center to use airlift. Back to their 
responsibilities, we require, in those contracts, that they 
adhere to the same standards and policies and training for 
staff that we utilize.
    Mr. Deutch. I appreciate the training. What happens when 
problems arise? What happens when there are reports like the 
ones The New York Times and other papers have documented?
    Mr. Kane. We have oversight staff on-scene at each of these 
locations, each prison, Bureau of Prisons staff. Their 
responsibility is, each and every day, to oversee those 
operations, including to observe transportation operations. So 
they are looking for routine problems, as well as anything that 
is more sensational, as you have described.
    Mr. Deutch. And I will wrap up quickly, Mr. Chairman; I 
appreciate it. Just two final questions. In providing that 
oversight, when there is information like this that arises, do 
they conduct reports? Have they conducted reports? And if so, 
can you make those reports available to us? That is my first 
question.
    Mr. Kane. Yes, if there are any such incidents, those staff 
would be recording and reporting them. And I am not aware of 
any. As soon as I am back in the office, we will follow up on 
this issue and report to you.
    Mr. Deutch. I appreciate it. But the issues that were 
reported in this last article, that transportation company was 
not one of the ones that you mentioned. Do these private prison 
companies subcontract out to other private transport companies?
    Mr. Kane. No, with an exception with CoreCivic, formerly 
CCA. They have a subsidiary that does transportation. I do not 
recall the name offhand. It is part of their corporate 
structure.
    Mr. Deutch. I am just trying to understand, for the next 
hearing, to make sure that we have the right folks here to 
address this issue, who is entering into the contracts with 
these private transport companies in order to transport these 
prisoners?
    Mr. Kane. Well, as I mentioned, the Federal Bureau of 
Prisons contracts with the companies that manage the prisons, 
and they, in turn, provide those transportation services. So in 
effect, I am not a contracting expert, but I think that our 
contracts cover, they specify, that they are to provide the 
transportation. And they do.
    Mr. Deutch. Okay. Do you know, Mr. Harlow? I am just trying 
to understand how these other companies play a role.
    Mr. Harlow. Sir, thank you. We utilize some of the major 
prison operators like the Bureau of Prisons has mentioned. And 
they provide transportation service to and from our court 
service every day as part of a daily rate. I mean, usually it 
is a small, less-than-50-mile transportation agreement. In 
terms of the nationwide contracts, I would assume it is mostly 
State and local governments that are contracting to cut down on 
the cost of extraditions.
    Mr. Deutch. Does that make sense, Dr. Kane?
    Mr. Kane. It does.
    Mr. Deutch. Okay. Mr. Chairman, I do hope that we can have 
a hearing focus on Jenna's Act and private prisoner 
transportation companies. And I know that Chairman Goodlatte 
has been interested in this issue, as well. It is just not 
acceptable in this country that furniture is treated with more 
care when delivering it across State lines than human beings in 
our justice system. And I hope that we will have an opportunity 
to pursue that directly in another hearing. And I appreciate 
it. I am sorry that I went over. I yield back.
    Mr. Gowdy. The gentleman from Florida yields back. The 
Chair will now recognize the gentleman from Texas, Judge Poe.
    Mr. Poe. I thank the chairman. Dr. Kane, I have just a few 
questions. How many people are in Federal prisons today? How 
many inmates? Give me a number.
    Mr. Kane. It is about 159,000, sir, in Federal prisons.
    Mr. Poe. That is right; that is all I am talking about. Of 
that 159,000, how many are foreign nationals?
    Mr. Kane. Twenty-two percent.
    Mr. Poe. How many of that 22 percent, after they are 
convicted, are awaiting deportation? Do you know?
    Mr. Kane. Those are ICE determinations.
    Mr. Poe. Do you know, is the question.
    Mr. Kane. I do not know because those determinations 
oftentimes are not made until just months before the individual 
is going to be released.
    Mr. Poe. Do you know how many of the 22 percent today are 
awaiting deportation?
    Mr. Kane. Not exactly. But historical trends will tell us 
it is the vast majority of them; if not, it is virtually all.
    Mr. Poe. All right. So most of them. Virtually all. Twenty-
two percent of the people in American prisons are foreign 
nationals. Most of them are awaiting deportation. Is that a 
fair statement?
    Mr. Kane. Yes, I think it is.
    Mr. Poe. Okay, thank you.
    Mr. Kane. And I would say----
    Mr. Poe. Thank you. I will reclaim my time.
    Mr. Harlow, I want to make some comments similar to Mr. 
Ratcliffe's about the Marshals Service. I was a judge in Texas 
forever. And before that, I was a prosecutor, like the chairman 
and many others, Mr. Ratcliffe, and had Marshals testify in my 
courtroom. I have worked with them back in the old days in 
prosecution.
    And you mentioned in your testimony that, because of the 
JVTA, and as you know, the Justice for Victims of Trafficking 
Act was a bipartisan bill. We had 11 bills in the house. Myself 
and Carolyn Maloney sponsored one of those. Ms. Bass and others 
had a bunch of bills that came together, passed in the House 
overwhelmingly, almost by unanimous vote. Same in the Senate, 
bringing America's awareness to the plight of trafficked 
females, primarily young girls.
    Part of that bill turns some responsibility over to the 
Marshals Service to rescue those kidnapped victims who are 
going to be trafficked. What would you estimate, from the time 
a young female is captured, kidnapped, and then put into 
trafficking, does the system need to find that female? How many 
days, would you estimate, before it is a difficult case?
    Mr. Harlow. Thank you, Congressman. Sorry, I do not know 
the exact answer to that. But my experience in law enforcement 
tells me that the first 24 to 36 hours are critical. That is 
why we pursue it so heavily, to get the missing child 
authority, because we know we have those skills to help hunt 
people, and we can hunt good people as easily as we can hunt 
bad people. And so it is very quickly.
    Mr. Poe. And that is part of the JVTA legislation, is to 
help get the Marshals Service to help rescue these child 
victims and keep them out, get them out of the scourge of 
slavery in the United States. I want to commend the Service for 
rescuing those 102 girls. Their lives are better because of it, 
and the country is better of it, and I commend you for that. 
Just keep it up.
    Go capture some of the outlaws, bring them to court, let 
Lawyer Gowdy prosecute them, and we will also rescue those 
girls and make the country safer for at least 102. So I commend 
you for that.
    I want to ask you, though, what can we do, Congress, to 
make your job better and more efficient in that? The rescue of 
child victims and the capture of the outlaws: what can we do on 
that issue of trafficking?
    Mr. Harlow. Well, sir, I feel a little sheepish because, 
like all other people that come before you, we struggle 
spreading our resources across----
    Mr. Poe. You need some more money.
    Mr. Harlow. We struggle, sir, to fulfill our job. And as 
you know, we have many things tugging at our sleeves: our 
responsibilities with the courts, our responsibilities with the 
Witness Program. And so more resources would help. We could do 
more with more.
    Mr. Poe. All right. Money. What else?
    Mr. Harlow. Quite frankly, sir, the accepted hiring 
legislation that I have, one of the things I wanted to talk 
about today. It would give us the ability to hire people more 
nimbly, faster, get them on board, and actually utilize them on 
the street.
    Mr. Poe. All right. So you want more people, and you want 
more money. Do you have a special unit assigned to trafficking 
victims?
    Mr. Harlow. Sir, we have the National Sex Offender 
Targeting Center, which was a unit set up when we got sex 
offender authority back in 2006. What we actually do is take 
those folks off of their sex offender missions, and they work 
in conjunction with the National Center for Missing & Exploited 
Children and use those resources to help track these missing 
children.
    Mr. Poe. And last comment or question: You also use State 
and local law enforcement to help you in this endeavor to 
rescue victims and capture the bad guys?
    Mr. Harlow. Absolutely, Congressman. We still form a posse 
before we go out. And our State and local law enforcement 
partners are a big part of that.
    Mr. Poe. I like that word, posse. Mr. Chairman, I yield 
back.
    Mr. Gowdy. Judge Poe yields back. The chair will now 
recognize Ms. Bass for her 5 minutes.
    Ms. Bass. Thank you, Mr. Chair. I wanted to raise a couple 
of issues, and one issue is in regard to pregnant inmates and 
the shackling of pregnant inmates. And it is my understanding 
that it is not BOP's policy.
    Mr. Kane. That is correct.
    Ms. Bass. And we did legislation to reinforce that. But 
what I wanted to ask you was, what steps do you use to enforce 
it, to make sure that it does not happen, since, anecdotally, 
we still hear about it? And I do not know if it is training or 
memos or what.
    Mr. Kane. It is absolutely training. We think that training 
has been accomplished. But it is reinforced, and very strong 
adherence to principles of individuals performing in accordance 
with policy. And if they are not performing their job in 
accordance with policy, they are considered to require some 
sort of redress administratively. And staff, colleagues, who 
would work with them would feel a strong propulsion to report a 
failure.
    Ms. Bass. Do you have any idea of what percentage of women 
are pregnant in BOP's custody at any given time?
    Mr. Kane. I do not offhand. It would be a very small 
number. But I do not. And those are individuals who would have 
come to us pregnant.
    Ms. Bass. Yes, we hope.
    Mr. Kane. Yes.
    Ms. Bass. That would be pretty bad. I wanted to ask you 
also a question about compassionate release. And what is the 
BOP doing to increase the use of compassionate release?
    Mr. Kane. Compassionate release, we are working hard----
    Ms. Bass. Well, how do you define it, actually?
    Mr. Kane. I am sorry?
    Ms. Bass. How do you define it?
    Mr. Kane. It is defined in several categories, as modified 
in policy over the last 6 or 7 years. But the primary 
categories in which individuals are recommended or referred or 
refer themselves are individuals who are terminally ill, 
seriously, significantly debilitated as a result of a medical 
condition; they are not terminally ill, but they really cannot 
perform well the activities of daily living. I mean, such 
things as bathing oneself or brushing one's teeth or even 
eating one's food. They are confined to wheelchairs or to beds, 
even though, once again, they are not terminally ill.
    There are other categories that involve elderly offenders 
who have served either a minimum or 10 years or the larger of 
10 years or 75 percent of their sentence. And the last category 
is a group of individuals who have a responsibility in the 
community to children and whose primary caregiver in the 
community, caregiver for the children, is either disabled, 
incapacitated, or deceased. And we have actually never had a 
request for that last category.
    Ms. Bass. Okay. Let me ask you a question, Mr. Harlow. And 
this is about Witness Protection Program. And given the rise in 
human trafficking throughout the U.S., particularly targeting 
vulnerable and at-risk children, I wanted to know if you had a 
sense of how many young people might be involved, who are 
victims of sex trafficking. What special protections are 
provided for them? Do they have access to Witness Protection?
    Mr. Harlow. Thank you, Congresswoman, for that question. 
Generally our Witness Protection Program involves organized 
crime or large drug organizations. I am not aware, 
Congresswoman, of anybody in our program who has been a victim 
of such things.
    Ms. Bass. You know, and I say that because one of the 
things that is very difficult is to get the young women to 
testify against the pimp. And so maybe there should be some 
thought about that, in terms of protecting them.
    Mr. Harlow. Yes, Congresswoman, I understand.
    Ms. Bass. So before my time runs out, I just wanted to take 
a minute to publicly thank Dr. Kane for helping me with a 
constituent issue that we worked through in moving an inmate. I 
was very appreciative for the responsiveness of your department 
and the fact that you stuck with it until we were able to get 
it done. Thank you very much.
    Mr. Kane. My pleasure, Congresswoman. Thank you.
    Mr. Gowdy. The gentlelady yields back.
    The Chair is going to inquire as to whether it is his turn. 
I will recognize myself. I like to go last, so I can have a 
sense of what may be left to ask. So let me start with the most 
important part.
    Mr. Harlow, if you would, on behalf of all of us, extend 
our sympathies or gratitude to the family of the deputy who was 
killed in Georgia. I took note of the fact that I think he was 
seeking a fugitive for someone who had been accused of a crime 
in South Carolina. So if you would tell the family how grateful 
we are and extend our sympathies to them, and also to the 
Marshals that I used to work with in Greenville. I am not going 
to call all their names, but there is a guy named Johnny Bonn. 
I think he goes by Johnson now because he is a supervisor now, 
so he needs a better name than Johnny. But I will always know 
him as Johnny Bonn. They were fantastic to me. If you would let 
them know how grateful I am.
    Mr. Harlow. Yes, Chairman. Absolutely.
    Mr. Gowdy. Let me ask this on the Bureau of Prisons piece. 
I have always been curious how you incent people to act 
properly. Both as a parent, I have been interested in how to 
incent people properly, but even more so in your case. What do 
you find works in terms of conforming a population that is 
where it is, necessarily, because they have not conformed? How 
do you incent good behavior in the Bureau of Prisons? How do 
you manage the population for the safety of your officers?
    Mr. Kane. Thank you very much, Mr. Chairman. It is a great 
question. As I mentioned earlier, our staff are amazingly 
dedicated law enforcement professionals, who do complicated, 
complex, and dangerous work. And you have hit on both. 
Individuals come to us who are very difficult to interact with 
at times, may be threatening and potentially violent at times. 
But at the same time, you also, in your opening statement, 
highlighted one of the major responsibilities we have; it is 
not only the effective incarceration as ordered by the court as 
a deterrent, but also enabling people to obtain skills that 
they need, so that, when they do return to our communities, 
they are not tempted to go back to crime, and they can live a 
successful, law-abiding life.
    And that latter part is part of the complicated side. And 
we train all staff to communicate well with prisoners, even if 
they are confrontational, recalcitrant, or cooperative, on a 
day-to-day basis to take every opportunity to encourage and 
reinforce involvement in activities or programs that help these 
people get ready to go back to our communities and remain 
crime-free.
    And a lot of that is not only the job skills and the 
education needed to perform well in the work environment. As I 
mentioned earlier, for some, it is substance abuse avoidance. 
But for virtually all, even the so-called low-risk offenders 
who have been convicted by the courts and sentenced to a term 
of incarceration, they have made major decisional errors in 
doing pro-criminal activities. So they may have a shallow 
criminal history, they may have an extensive criminal history, 
but they need to change that thinking.
    And some of that is approached more formally through the 
kinds of criminal-thinking training that I mentioned earlier, 
done typically by psychologists in groups. But some of it is 
also part of the this daily interaction between a correctional 
officer and the inmates they supervise. A counselor, a case 
manager, a secretary, everybody, the doctors and nurses, they 
are all trained to be law enforcement professionals and to 
obtain and practice and use these communication skills that 
identify issues the prisoner needs to address and encourage 
them to get on it and focus on it and to do it in a way that 
the individual receives the guidance well and will work with 
it.
    So I am so happy you asked the question. These prisons are 
really, as you know, as a former prosecutor, small communities. 
Literally everything that goes on in any community happens in 
prison, including crime. And so, you know, there is even the 
jail within the prison for the individuals who threaten the 
safety of others while they are there. And it is the Special 
Housing Unit. But all that is done, from education to job 
training, basically, to reshaping thinking to pro-social 
thinking, has to be done while these people are with us. And 
our staff do an amazing job.
    Mr. Gowdy. Well, there are several of us on the committee 
that have kind of bound together over the past couple of years 
under the general heading of criminal justice reform. And 
something that I always find helpful is data, reliable data. So 
if I were interested in kind of a snapshot of who is in the BOP 
for mandatory minimum sentences, statutory mandatory minimum 
sentences, the age of the folks that are serving mandatory 
minimum sentences, the criminal history, the role in the 
offense, would you be the proper person to go through for the 
statistics, or would that be the Sentencing Commission?
    Mr. Kane. It is the Sentencing Commission.
    Mr. Gowdy. Okay.
    Mr. Kane. We do work closely with them on data-related 
requests. But that would be their data.
    Mr. Gowdy. All right. So if Mr. Richmond and I wanted to 
embark to kind of identify who has been impacted by mandatory 
minimums, it is the Sentencing Commission and not BOP where we 
should direct our inquiries.
    Mr. Kane. That is correct. We are happy to help you any way 
we can with data.
    Mr. Gowdy. Well, I think data is useful. You know, I do not 
hear it from my colleagues in Congress, but from time to time, 
I will hear it on television: the people that are in Federal 
prison for simple possession of marijuana. And I swear I have 
no idea who they are; I do not know how you wind up in Federal 
prison for simple possession of marijuana unless it is on an 
Indian reservation or in a Federal park. But sometimes, 
statistics kind of undercut the mythologies that are out there 
in terms of who is in the BOP. And with respect to mandatory 
minimums, I am really interested in the criminal history, the 
age, the role in the offense. So we will go to them.
    Last question, because I am out of time. You may not want 
to answer this question publicly. And if you do not want to 
answer it publicly, that is fine. You can get back to me 
privately. But I am always curious. I will start with the 
Marshals. Is there something that is assigned to your 
jurisdiction that you think is more properly assigned to 
another Federal law enforcement agency, or is there something 
you think you could be doing but is not currently in your 
jurisdiction?
    Mr. Harlow. Thank you, Congressman, Chairman. The first 
answer, I cannot think of anything off the top of my head that 
I have now that I think should be assigned someplace else. I 
would like to have a further conversation, in a different 
setting, about things that might possibly be assigned to the 
Marshals Service.
    Mr. Gowdy. All right, let's do that. And again, if you 
would tell the women and men that work in your respective 
agencies how grateful we are to them, and especially the family 
of the slain deputy in Georgia.
    Mr. Harlow. Yes, sir.
    Mr. Gowdy. With that, I would recognize the gentlelady from 
Texas, or perhaps the gentleman from Maryland. Gentleman from 
Maryland?
    Mr. Raskin. Mr. Chairman, thank you kindly. I appreciate 
it. And welcome to our witnesses. Every day, I take it, there 
are around 10,000 Federal prisoners who are in solitary 
confinement conditions. And I guess the average stay in 
solitary is somewhere around 75 days. So I know that there was 
recently a critical Department of Justice report, a critical 
GAO report, and then there were a whole study and 
recommendations for change, which I was pleased to learn the 
Bureau of Prisons' staff participated in. You were part of this 
process.
    And so coming out of that process, I understand you, 
presumably, would need to make changes to your program 
statements and rules and procedures and policies and practices 
and so on. And I am just wondering if you could provide us with 
an update on where we are in terms of translating a new 
approach to solitary confinement in the prisons. Where are you 
in this evolution?
    Mr. Kane. Thank you very much, Congressman Raskin. First of 
all, I am going to put this in a broader context, because I 
want to you to understand that what is happening with what we 
refer to as restrictive housing, as opposed to solitary 
confinement, nationally, including the Bureau of Prisons, but 
in State prisons as well, we actually work very closely 
together in an association of all directors and we use a 
different term. It is restrictive housing because we have 
largely moved away from individuals in effect being in a cell 
by themselves. At times that is necessary, but the vast 
majority of people who are in restrictive housing are actually 
in a cell with someone else. And so solitary confinement, as it 
is typically thought of or depicted in movies, is not really 
the case.
    You are absolutely correct about the Department of Justice 
Restrictive Housing Workgroup and the recommendations that were 
made by it. It involved roughly a dozen components, including 
the Bureau of Prisons' civil rights and others. And they were 
adopted by the Attorney General and recommended to the White 
House for endorsement. The President did that. But again, I 
would like to offer that what is in those principles and 
overseeing guidelines exists now across the States and in the 
Bureau of Prisons, as well.
    And by the way, there are roughly a little over 8,000 
individuals in restrictive housing today. Only about a quarter 
of them are actually there for disciplinary segregation. The 
others are there for an investigation of something that has 
happened that is threatening to the safety of the prison and 
the security of the prison. And others, a small number, again, 
are there usually at their request for protective custody. But 
those people we work very closely with to move them on to 
specialized units we have that gradually transition them out to 
the general population and give them freedom of movement, 
access to full programs, et cetera.
    Mr. Raskin. I got you. The report, I think, stated--this 
is, again, before a number of these changes were implemented--
that the ordinary prisoner in a solitary confinement or 
traditionally solitary confinement-type setting would be alone 
for 23 hours, with very little access to the outside. But you 
are saying that that is not the norm today?
    Mr. Kane. That is correct. That is absolutely correct. 
People are not in ``solitary''. They are not alone. And 
candidly, that is related to concerns by all of corrections 
nationally, including the Bureau of Prisons, the Department of 
Justice, about individuals who may have mental illness that we 
are not aware of that can be exacerbated by being alone, not to 
mention individuals who may be questioning taking their own 
lives.
    Mr. Raskin. Got you. One other question for you: The Office 
of National Drug Control Policy found, in December, that the 
Bureau of Prisons is conducting a field trial. Is that right? 
They reported a field trial of a medication-assisted drug 
treatment program for people who are transitioning back to the 
community from incarceration. And I am just wondering, what is 
happening with the field trial of prisoners going back and 
getting medication assistance for drug problems?
    Mr. Kane. Well, currently, that plan for the field trial or 
the implementation of that program is suspended. It is a new 
program that would have gone into effect after the continuing 
resolution was put in place. And we are not able to do that.
    Mr. Raskin. For budgetary reasons?
    Mr. Kane. Yes, currently.
    Mr. Raskin. Okay. I yield back, Mr. Chairman. Thank you 
very much.
    Mr. Gowdy. The gentleman yields back. Judge Gohmert is 
going to yield in lieu of Ms. Jackson Lee from Texas for 5 
minutes.
    Ms. Jackson Lee. Let me thank the judge from Texas for his 
courtesies and the chairman for his courtesies. Let me also 
acknowledge on the record that my inability to be here at the 
beginning of the hearing was because of my membership on the 
Helsinki Commission, which we were holding hearings on what we 
call Sudden Kremlin Death Syndrome, which has to do with the 
rapid death of dissidents in Russia under the administration of 
Vladimir Putin. So I thank the committee for its courtesies and 
appreciate the very fine work that is being done.
    I also want to say to the chairman that that request for 
data is crucial. And I look forward to joining him on that 
request for information regarding the impact on mandatory 
minimums because I am hoping that we will ignite, again, our 
move toward criminal justice reform, which would include the 
bills of many of my members that are on this panel, including 
Congressman Richmond and others who have joined us in very, how 
should I say, unifying work on helping to improve the criminal 
justice system. You gentlemen are components of it, and so I 
want to get, as quickly as I can, to questions.
    And Dr. Kane, thank you for your years of service. As you 
may have known, I worked very closely with our past Bureau of 
Prisons director, who visited Houston. So here is a personal 
invitation for you and U.S. Marshals. You certainly should be 
there. And I want to acknowledge my U.S. Marshal, Mr. 
Blankinship, who has done a superb job, has a vast territory. 
It is amazing how your U.S. Marshals can cover areas that are 
larger than some States in the United States of America. So we 
thank you, and Dr. Kane, certainly your commendations and 
medals indicate your commitment to the service of this Nation.
    We hold human beings in these institutions. And so we are 
not retaining wild animals. They are human beings who have 
varying levels of acts against society, violent acts, and 
others. But they are also a myriad of levels. So we have the 
responsibility for the care and handling of these persons. And 
their civil rights are not denied or should not be 
distinguished.
    So let me quickly go to the question of private prisons. 
And I would be interested in--and I am going to try and answer 
these questions--private prisons, interested in the number that 
we have. And I want to refer you to legislation that I have 
that would apply the Freedom of Information Act to private 
prisons, which is not the case now, which is a sad state of 
affairs. I also want to know whether private prisons have a 
major mental health component to it.
    So let me just jump to your jurisdiction. When I say your 
jurisdiction: prisons, not private prisons. Would you give me 
the census that you think is in prison today under the Federal 
system? Would you also give me what your mental health response 
is and what your suicide census is? What do you do for 
individuals who may appear to be subject to suicidal acts? And 
I am going to jump to the U.S. Marshals, so when I finish, you 
can answer the questions quickly.
    First of all, thank you for the 46,000 persons that you 
have, I think, in sex offenders. And when I say thank you for 
the work under the Violent Offenders Program under President 
Obama, $11 million that helped you get--well, you might want to 
give me the number. I want to congratulate you on that.
    But let me ask you these questions about the U.S. Marshals 
being diverted into duties assisting ICE regarding undocumented 
folk, because ICE presently is perennially short. Have you been 
told by the administration that your offices would be used for 
that? Thank you for the violent offenders that you have gotten.
    Also, we have heard some unfortunate statements from the 
administration about ridiculous opinions and Federal judges. 
And I just met with my Federal judges just about a couple of 
weeks ago and got a number of important issues. I want to know, 
what level of security are you offering? Or what kind of 
ramped-up security? Or your recognition that judges get threats 
and to make sure that those judges, all of our judges, are 
secure.
    Lastly, Dr. Kane, would you comment on whether or not we 
have a civil rights officer in the Federal Bureau of Prisons 
and your openings to such kind of officer? I appreciate your 
answer.
    Dr. Kane, if you will go first on the questions that I 
posed.
    Mr. Kane. I am sorry?
    Ms. Jackson Lee. If you would go first on the questions 
that I posed, that I just gave you.
    Mr. Kane. Thank you very much. I will.
    Ms. Jackson Lee. Thank you.
    Mr. Kane. Thank you, Ranking Member Jackson Lee, and for 
your support over the years of the Federal Bureau of Prisons. 
We greatly appreciate it. We do not have an individual who 
would be identified specifically as a civil rights officer. But 
we have very active oversight of all of our operations. And any 
activity that would be potentially considered to be a civil 
rights violation by our staff or environmentally would be 
referred for review by our staff. And if they fail to refer 
such, that alone is a referable action.
    Ms. Jackson Lee. I gave you other questions. Did you not 
take note of them?
    Mr. Kane. Yes, but I do not claim to remember them all.
    Ms. Jackson Lee. Mental health?
    Mr. Kane. Thank you, and private sector and mental health.
    Ms. Jackson Lee. And the Freedom of Information Act.
    Mr. Kane. Yes, the Federal population prevalence of serious 
mental illness is approximately 4 percent or 7,000 nationally. 
There is another 10 percent or so who need intermittent care, 
such as a grief counseling, brief sort of intervention for 
crisis, psychiatric medication. So, 4 percent serious mental 
illness with ongoing acute treatment, another 10 percent who 
need the intermittent engagement, and then the rest of the 
population that is really comprised of people who have other 
behavioral health issues, certainly including addiction and 
substance abuse: 40 percent. Other individuals who are sex 
offenders: roughly 10 percent, and requiring treatment.
    At the private sector facilities, our approach is to ask 
them to manage individuals who are at the minimal-need level, 
both respect to medical issues and mental health issues. And we 
try to take, the Bureau of Prisons, more challenging cases of 
non-citizens who are low security who normally would go to the 
private sector. But if they have more strident medical care 
needs or mental health needs, we keep them in the Bureau of 
Prisons and treat them there.
    Ms. Jackson Lee. Dr. Harlow. Thank you. The last two 
questions. Did you hear what I proposed to you?
    Mr. Harlow. Yes, thank you, Ranking Member Jackson Lee. I 
appreciate the time you gave me yesterday. And thank you for 
your comments about the Marshals Service. To your first 
question about immigration enforcement, ma'am, it is not 
currently part of our jurisdiction, nor have we been asked to 
assist.
    I do want to be clear that the Marshals Service is 
responsible for helping our State and local partners apprehend 
violent felons, violent fugitives. And occasionally we do get 
somebody who is an illegal immigrant who has a violent felony 
warrant. So we may be involved in arresting that individual. 
But we are not involved in what I would call status sweeps or 
picking people up for their illegal status.
    To your second question, Ranking Member Jackson Lee, about 
judicial security, we have noticed a significant uptick. I 
would associate it more with the proliferation of social media 
and an uptick in what I would call, not necessarily threats, 
but inappropriate communications. It is very easy for people, 
with the variety of Twitter, Snapchat, Facebook, and so forth, 
to type something on a computer that is inappropriate and send 
it out. And so a lot of our protectees are receiving what we 
call inappropriate communications. And our workload has 
increased, trying to ascertain and analyze if those are serious 
threats.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. May I 
just introduce deputy chief counsel, Ms. Monalisa Deugeu, who 
is now working on the Crime Subcommittee? Thank you.
    Mr. Gowdy. Certainly. Welcome.
    Ms. Jackson Lee. Thank you. I will yield back.
    Mr. Gowdy. The gentlelady yields back. The chair will now 
recognize the gentleman from Texas and then my friend from 
Louisiana, who has been waiting very patiently. And now, Judge 
Gohmert from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you both 
for being here, for your testimony, for your job you are doing. 
And sorry I was late getting here. I want to follow up on areas 
my friend from Texas was asking about.
    For one thing, there is an article here. It is not recent, 
but it indicates that immigrants take a big bite out of U.S. 
Marshals custody resources.
    Mr. Harlow, what is the status right now? About what 
percentage, if you could estimate, of your resources is being 
expended for people who are apprehended who are aliens or 
immigrants, whether legal or illegal?
    Mr. Harlow. Thank you, Congressman, for that question. 
Currently, I am sorry, I do not have a number for you. I will 
be happy to see if I can find that for you. But several people 
who are arrested, if they are not charged federally, new 
charges brought by the U.S. Attorney's Office, they do not 
necessarily come into the Marshals Service's custody in pre-
trial detention.
    It is important to note that we do have to fight for the 
same detention beds that ICE does. And so many times, uptick in 
immigration enforcement causes us to compete against each 
other, trying to find appropriate bed space near our court 
cities. So it does affect us. Yes, sir.
    Mr. Gohmert. But my question was if you had an estimate on 
the percentage of your expenditures regarding custody resources 
for people who are immigrants.
    Mr. Harlow. I am sorry, sir, I do not have an estimate for 
that. I will be happy to get back to you.
    Mr. Gohmert. All right. Well, we had heard during the 
presidency of President Obama's administration a great deal 
about people in Federal custody for just simple possession of 
controlled substances. So, Dr. Kane, at one time Jeff Sessions, 
then-Senator Jeff Sessions, had gotten information regarding 
the number of people in Federal facilities who were there for 
simple possession. It was my experience as a state prosecutor 
at one time and as a felony judge in Texas and as a chief 
justice that the feds just did not normally deal with simple 
possession unless it was a huge amount, although sometimes 
people who were a cooperating witness that were turning against 
others were allowed to plea down to a simple possession in 
return for testimony against co-conspirators.
    Do you have a current figure on what percentage of people 
are in Federal prison for simple possession of controlled 
substance?
    Mr. Kane. I do not have that specific figure with me here 
today.
    Mr. Gohmert. What would be the latest numbers you would 
have?
    Mr. Kane. I can tell you, however, though, it is my 
experience that it is a very, very small percentage.
    Mr. Gohmert. Yeah. And in fact, it was surprising to me 
that, although it is a very small number, the numbers that were 
given to Senator Sessions, that it seemed like around 3/4 of 
that small number in Federal prison for simple possession were 
illegally in the country. Do you have any idea how many people 
are in Federal prison for possession of a controlled substance 
who are here illegally?
    Mr. Kane. I do not have that with me offhand.
    Mr. Gohmert. Can I make that request?
    Mr. Kane. Yes.
    Mr. Gohmert. Would you agree to provide the latest 
information you have on the number of individuals in Federal 
custody and the number of people that are in Federal custody 
who are here in the U.S. illegally? You agree to provide that?
    Mr. Kane. Yes. I can tell you that 22 percent of all 
Federal offenders are non-citizens. They are not citizens of 
the United States. That is almost 40,000. 39,000-plus.
    Mr. Gohmert. Now, you say 22 percent. Is that of people 
that are----
    Mr. Kane. All Federal prisoners.
    Mr. Gohmert. All Federal. Including pre- and post-
conviction?
    Mr. Kane. No. These are post-conviction.
    Mr. Gohmert. Those are all post-conviction.
    Mr. Kane. Yes.
    Mr. Gohmert. I was not familiar with any in Texas. It seems 
any time there were Federal prisoners, they were kept in the 
local jail, the county or city jail, normally the county. Is 
that true around the country?
    Mr. Harlow. Yes, Congressman. Pre-trial detainees are kept 
by the U.S. Marshals Service.
    Mr. Gohmert. Right. Okay.
    Mr. Harlow. And usually, we rent space at the county jail.
    Mr. Gohmert. All right. Well, I sure do appreciate your 
work, your testimony, and we will look forward to getting the 
information. Thanks, Dr. Kane.
    Mr. Kane. Thank you, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Harlow.
    Mr. Gowdy. The gentleman from Texas yields back. The chair 
will now recognize the very patient gentleman from Louisiana, 
Mr. Richmond.
    Mr. Richmond. Right. Thank you, Mr. Chairman. Dr. Kane, let 
me just ask you one quick question, which is, when I looked at 
some of the private prison contracts, some of them had 
occupancy guarantees; do we still employ occupancy guarantees 
for contracts with private prisons?
    Mr. Kane. We basically are changing the way we do contracts 
so that we specify a target number to be housed there. And that 
is the approach we will continue to take going forward.
    Mr. Richmond. Why do we give them a target population? I 
mean, we still fund our prisons. I mean, we are going to have 
to pay for all of the utilities, the guards, and everything 
else no matter if they are at 5 percent, 10 percent, 100 
percent. I just do not see the logic in basically giving an 
occupancy guarantee or a guarantee or profit or break-even 
point to a private industry that wants to engage in this 
business. And I would hope that we could revisit whether we 
should guarantee any sort of baseline money that they will 
receive.
    Mr. Kane. My understanding is that, from a contracting 
perspective, it is used to, in effect, drive economies of 
scale, larger populations in prisons that can be managed, so 
that their offers in the contract amounts and payments are as 
low as we can obtain.
    Mr. Richmond. Well, I would just suggest that, in the 
hotel-motel industry, as a State, we have done that and others. 
And to me, it just kind of defies logic because, if we reduce 
our Federal prison population, we still have an obligation to 
make sure that their beds are full. So I do not want to belabor 
that point, but I think it is something that we should look 
into.
    Let me get into what I was really interested in. You 
mentioned or we have information that the recidivism rate for 
those that participate in the prison enterprise program or, 
what is it, RPI, is 24 percent less than others.
    Mr. Kane. That is correct. Less than comparable others.
    Mr. Richmond. Right, and that they are 14 percent more 
likely to get steady employment.
    Mr. Kane. That is correct.
    Mr. Richmond. Do they get any good time credit for 
participating in that program?
    Mr. Kane. They do not.
    Mr. Richmond. Okay. What about the, what is it, the RDAP 
program?
    Mr. Kane. Yes.
    Mr. Richmond. If they participate in that, they can get 
almost a year of early release.
    Mr. Kane. That is correct.
    Mr. Richmond. What is the recidivism rate of those who 
participate in RDAP compared to those who do not who also had 
an addiction?
    Mr. Kane. The recidivism rate, did you say?
    Mr. Richmond. Yes, recidivism rate.
    Mr. Kane. Recidivism rate. The relative reduction in 
recidivism as a result of participating in the RDAP program is 
16 percent.
    Mr. Richmond. So for a program that makes you 16 percent 
less likely to recidivate, we give you a year off. For a 
program that makes you 24 percent less likely to recidivate, we 
do not give you anything. Look, you do not set the policy. I am 
just asking if I am correct.
    Mr. Kane. The incentive, I will offer, for Prison 
Industries that individuals pursue--and we have waiting lists 
virtually everywhere; people really want that training 
opportunity--is they are paid more than other inmates in other 
institution jobs. And virtually everybody works. But beyond 
that, they see the value in that program.
    Mr. Richmond. Right. And where I am going is, if they are 
less likely to commit a crime when they get out, would it be 
good policy to give them some good time? Maybe not a year, but 
give them some early release because every 7 days that we 
increase good time or release, we save $50 million a year. So 
if we are talking about where we are spending money and what 
would be wise, would it be wise to give people who participate 
in that program some increased good time like we do RDAP?
    Mr. Kane. Well, incentivizing prison program participation 
is a major issue for us all the time. We would be happy to work 
further with you and the committee on this issue and brief you 
on what we do and have discussions with you and other members, 
if you wish.
    Mr. Richmond. And it would go the same for the educational 
programs and the financial literacy, all those other programs. 
You do not get any increased good time or early release for 
participating?
    Mr. Kane. With respect to education and completion of a 
GED, a high school equivalent, an individual who does not have 
that certificate yet, to be eligible for good time, must 
participate.
    Mr. Richmond. Okay.
    Mr. Kane. So the Congress did design in that contingency 
for individuals who do not yet have a high school education.
    Mr. Richmond. My last question would be, statute authorizes 
you to do up to 15 percent in good time, which would be 57 days 
a year, I believe. Somewhere around there. 54 days a year, 55.
    Mr. Kane. Fifty-four, that is correct.
    Mr. Richmond. You all implement a program that is 47, days 
as opposed to 54. If you just get us to the 54, we save $50 
million a year. So the question becomes, I am not saying that 
it was your idea to do it, but what is the rationale of 
offering less days' credit than we have authorized you to give?
    Mr. Kane. We have dealt with this issue over the years and 
worked with the committee on it previously. There is a 
relatively minor tweak in the authorizing language for good 
time that needs to be made in order for us to give that full 
54. And basically, the issue is this: the individual is, in 
effect, eligible for 54 days a year for every year served.
    Mr. Richmond. Correct.
    Mr. Kane. And so, because the individual does not serve the 
entire term, they do not get 54 days for all 10 years on a 10-
year term, you know, if they are able to leave at 8-and-a-half 
years.
    Mr. Richmond. Okay.
    Mr. Kane. And so that is all. It is an issue that I think 
can be resolved fairly non-controversially.
    Mr. Richmond. Mr. Chairman, if he could just let us know 
what that tweak is, because if we are trying to find some 
savings and not put the public at risk----
    Mr. Kane. And that is an incentive for positive performance 
while people are incarcerated.
    Mr. Richmond. Well, thank you. And I look forward to 
working with you on all of your issues. And thank you for the 
job that you do. It is not easy.
    Mr. Kane. Thank you.
    Mr. Richmond. And thank your employees also.
    Mr. Kane. I will.
    Mr. Richmond. With that, I yield back, Mr. Chairman.
    Mr. Gowdy. Our friend from Louisiana yields back. This 
concludes today's hearing. On behalf of Chairman Goodlatte, 
Ranking Member Conyers, Ranking Member Jackson Lee, and all the 
members of the committee, we want to thank you for your 
appearance today and for loaning us your insight and your 
perspective.
    Again, I know I have said it twice before, but it means a 
lot to me that you let the folks that you work with know that 
we have asked a lot of them. They have a lot of responsibility. 
And we have very high standards for the folks in the U.S. 
Marshals and the BOP. But we are very grateful that there are 
people willing to do these challenging jobs.
    So with that, the hearing is concluded. Without objection, 
all members will have 5 legislative days to submit additional 
written questions for the witnesses or additional matters for 
the record. The hearing is adjourned.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]

                                  [all]
</pre></body></html>
